Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




          FDA Oversight of
         Clinical Investigators




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-05-99-00350
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. The

inspection reports provide findings and recommendations on the efficiency, vulnerability, and

effectiveness of departmental programs. 


OEI's Chicago Regional Office prepared this report under the direction of William Moran,

Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI

staff included:


REGION                                                    HEADQUARTERS

Thomas Komaniecki, Team Leader                            Elise Stein, Program Specialist

Nora Leibowitz

Susan Otter


To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
Reports are also available on the World Wide Web at our home page address:

                                   http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                     SUMMARY


PURPOSE

        To examine the Food and Drug Administration’s (FDA) selection of clinical investigators
        for inspection and FDA’s discipline of those clinical investigators found in violation of
        FDA’s regulations.


BACKGROUND

        The FDA is responsible for monitoring and approving the development of new drugs,
        biologics and medical devices. Companies develop these products with the assistance of
        clinical investigators. Clinical investigators recruit the subjects, perform the studies and
        report the results. The FDA’s bioresearch monitoring program inspects clinical
        investigators involved in clinical research to ensure the quality and integrity of data
        submitted to the agency and to protect the rights and welfare of human subjects. In most
        cases, these inspections occur after clinical work is complete.

        The FDA is organized into Centers and the Office of Regulatory Affairs (ORA). Several
        of the Centers are involved in monitoring the development and testing of new human
        drugs, biologics and medical devices. The ORA staff conduct on-site inspections as part
        of the application review process for experimental products. The Centers assign the
        inspections, classify their results and decide what action to take.

        We reviewed the universe of 184 official actions taken by FDA since Fiscal Year (FY)
        1994. We interviewed the staff and managers in FDA’s bioresearch monitoring programs.
        We also analyzed FDA’s listing of clinical investigators, as well as performed a work flow
        analysis. We only examined FDA’s bioresearch monitoring programs involved in the
        review of new human drugs, biologics and medical devices.


FINDINGS

Overall oversight of clinical investigators is limited

        Sponsors, Institutional Review Boards and FDA oversee clinical investigators’ research.
        Reviews by FDA have found serious problems with sponsors’ monitoring of clinical
        investigators. Previous work by the Office of Inspector General found problems with
        Institutional Review Boards’ oversight of clinical research. The FDA, in FY1999, non-
        randomly inspected only 468 clinical investigators of nearly 14,000 clinical investigators
        potentially involved in clinical trials. (The FDA could not provide the actual number of
        clinical investigators who submitted data in support of product applications.) We
        understand that the current FDA system is not intended to provided day to day oversight


   Oversight of Clinical Investigators            1                                     OEI-05-99-00350
        of clinical trials. Rather, it provides a retrospective review of clinical trials. This report
        raises concerns about the assignment and classification of the current system of
        retrospective clinical investigator inspections.

Data integrity concerns, more than human subject protection, drive FDA’s
oversight of clinical investigators

        Although respondents indicated that program goals are ensuring data integrity and
        protecting human subjects, FDA’s monitoring of clinical investigators is more directly
        focused on verifying data. These inspections are application driven with number of
        subjects, data issues and inspection history driving the selection. While examining data
        integrity supports FDA’s role of protecting consumers from unsafe or ineffective medical
        products, we did not find that this process protects human subjects during the research
        process. Other programs within and outside of FDA are more geared toward human
        subject protection.

        Staff identified deliberate violations of the regulations and jeopardizing data integrity as
        the most frequent reasons to assign “official action indicated” to an inspection. Fraud and
        repeated violations will often merit disqualification. Review of official actions issued by
        FDA found the majority of official actions cited documentation and protocol violations.
        We also note that investigations are conducted after clinical research is completed, making
        oversight of human subjects protection retrospective rather than concurrent with clinical
        research.

The bioresearch monitoring program lacks clear and specific guidelines

        The FDA regulations state that a clinical investigator may be disqualified from receiving
        investigational drugs, biologics or devices for repeatedly or deliberately failing to comply
        with the regulations. There is no required review of complaints or clinical investigator
        inspection histories as part of the clinical investigator selection process, although 70
        percent of staff reported that they do check complaints or inspection histories. Staff
        receive little or no formal training on how to select clinical investigators for inspection or
        how to assess what action should be taken when violations are found. No written
        guidelines exist at a Center level for bioresearch monitoring staff on what “repeated or
        deliberate” violations mean. The FDA does not have agency-wide program measures for
        the bioresearch monitoring program.


RECOMMENDATIONS

        This report does not make any recommendations regarding the weakness found with
        sponsor or institutional review board oversight of clinical investigators, since they have
        been addressed in other studies. Our recommendations focus on improving FDA’s
        oversight of clinical investigators.




   Oversight of Clinical Investigators             2                                        OEI-05-99-00350
The FDA should define cross-Center goals for the bioresearch monitoring
program and develop criteria to determine whether the program is achieving
those goals

        While respondents in all three Centers described similar program goals, there is currently
        no way to determine whether bioresearch monitoring is achieving those goals. The FDA,
        through the internal working group on bioresearch monitoring, should define what an
        effective bioresearch monitoring program should accomplish. As part of that definition,
        FDA should:

        C	        clarify how long the process should take from the conclusion of the investigation
                  and submission of the report until a decision is made on the results of the
                  inspection and issuance of any Agency actions; and,
        C	        clarify the criteria for selection of clinical investigators for inspection including
                  looking at smaller sites and previous inspection history and compliance.

        The FDA should also recognize the limitations of the current system’s ability to protect
        human subjects during clinical trials. Currently, the vast majority of inspections are
        conducted after clinical trials are complete. Any human subject violations identified are
        found too late to protect the human subjects involved.

The FDA should develop internal guidance on the thresholds that violations must
meet to justify disqualifying a clinical investigator from receiving investigational
products

        The FDA’s internal working group on bioresearch monitoring should develop guidance on
        the severity and number of violations needed to justify beginning disqualification
        proceedings. Cross-Center guidance would insure that each of the Centers handles the
        results of clinical investigator inspections consistently. We believe that having a written
        framework can provide structure for FDA reviewers.


AGENCY COMMENTS

        We would like to thank the Food and Drug Administration for commenting on the draft of
        this report. Based on FDA's general and technical comments, some changes and
        clarifications were made in this final report.

        The FDA commented that they are not responsible for providing patient care and that they
        are not currently equipped to monitor studies during the research process. We recognize
        this. We also understand that FDA attempts to protect human subjects and the general
        public through retrospective review of clinical investigators, research sponsors and
        institutional review boards. See Appendix B for the text of the Agency’s comments.




   Oversight of Clinical Investigators               3                                      OEI-05-99-00350
                          TABLE                      OF             CONTENTS


                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Overall Oversight Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Inspections Spotlight Data Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Bioresearch Monitoring Program Lacks Clear Guidelines . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDIX

    A: Review of FDA Official Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          B: Text of Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





     Oversight of Clinical Investigators                        4                                                OEI-05-99-00350
                                         INTRODUCTION


PURPOSE

        To examine the Food and Drug Administration’s (FDA) selection of clinical investigators
        for inspection and FDA’s discipline of those clinical investigators found in violation of
        FDA’s regulations.


BACKGROUND

Agency structure

        The FDA is responsible for enforcing the Federal Food, Drug and Cosmetic Act as well as
        other public health laws. To accomplish this mission, FDA is organized into Centers and
        the Office of Regulatory Affairs (ORA). Several of the Centers are involved in monitoring
        the development and testing of new drugs, biologics and medical devices. These Centers
        are the Center for Drug Evaluation and Research (CDER), the Center for Biologics
        Evaluation and Research (CBER) and the Center for Devices and Radiological Health
        (CDRH), respectively. The ORA staff conduct on-site inspections as part of the
        application review process for new drugs, biologics and medical devices. These staff also
        conduct other inspections, such as food safety and mammography equipment.

Clinical Investigators

        Clinical investigators perform the actual research used to support applications for new
        drugs, biologics and medical devices. A clinical investigator may be a professional
        researcher operating out of a research institution such as a research hospital or university,
        or may be a practicing physician who also conducts clinical research. A company
        developing a new product hires clinical investigators to recruit subjects, conduct the
        research and report the results back to the company.

        Clinical investigators are monitored by several groups: the “sponsor” or company
        developing the product or a third party contracted by the sponsor; a local Institutional
        Review Board and FDA. Clinical investigators have several responsibilities in conducting
        clinical trials, including:

        C         documenting data collection and study procedures accurately and completely;
        C         reporting to the sponsor, Institutional Review Board and FDA;


   Oversight of Clinical Investigators            5                                      OEI-05-99-00350
        C         protecting the safety of participating subjects;

        C         following study protocols; and 

        C         maintaining control of the investigational product.


        Clinical investigators sign investigator agreements that attest to their knowledge of and

        agreement with their responsibilities under FDA regulations as researchers.


Clinical investigator inspections

        Units within each Center review applications for new drugs, devices or biologics. Each
        application includes a list of all clinical investigators submitting research in support of the
        application. As part of the application process, FDA staff inspect a non-random sample of
        clinical investigators. In addition to clinical investigator inspections, bioresearch
        monitoring selects sponsors and Institutional Review Boards for on-site inspections.

        Three quarters of inspections are initiated as part of FDA’s application review process.
        The bioresearch monitoring team, in consultation with application review staff, select three
        or four clinical investigators per application for inspection. Clinical investigators are also
        investigated due to complaints received by FDA, observations noted during previous
        inspections of the clinical investigator or analysis of data submitted to FDA.

        Once a clinical investigator is selected for an inspection, FDA bioresearch monitoring staff
        issues an inspection assignment to ORA. The ORA investigators conduct the inspection.
        Occasionally staff from the assigning Center will accompany the field investigator on their
        inspection.

        The inspection involves interviews with the clinical investigator and study staff and a
        review of the clinical investigator’s processes, records, data and documentation. Field
        investigators use a Form FDA-483 to record problems observed during the inspection. If
        problems are observed during an inspection, the clinical investigator receives a copy of the
        FDA-483 at the end of the inspection. The field staff sends a copy of the FDA-483 and
        the Establishment Inspection Report, which includes copies of all documents collected
        during the inspection, to the Center that issued the assignment.

Inspection classification

        Using the information provided by the field investigator, Center staff classify the
        inspection as no action indicated, voluntary action indicated or official action indicated.
        The FDA would classify an inspection with few or no objectionable conditions or practices
        as no action indicated and the clinical investigator is not required to make any changes or
        respond to the FDA. When FDA classifies an inspection as voluntary action indicated, the
        clinical investigator is asked to make voluntary changes. A letter



   Oversight of Clinical Investigators              6                                     OEI-05-99-00350
        requesting voluntary action does not necessarily require a response from the clinical
        investigator.

        For inspections that result in an official action indicated classification, a Center can take a
        number of different official actions. However, two official actions appear to be used in the
        vast majority of cases. For those cases in which the violations appear less serious, a
        Center sends the clinical investigator a Warning Letter outlining violations and requesting
        a response. The response from the clinical investigator should include the specific steps
        the clinical investigator plans to take to correct the violations, as well as what steps will be
        taken to prevent a recurrence of similar violations. The FDA may also elect to not allow
        the clinical investigator’s data to be included in the application. The FDA considers this
        decision one of their most significant controls over the activities of sponsors and
        ultimately clinical investigators.

Disqualification proceedings

        For more serious violations, a Center can initiate the disqualification of the clinical
        investigator from future clinical research. A disqualified investigator may not receive
        investigational products, which in effect prohibits that clinical investigator from
        conducting clinical trials.

        A Center issues the clinical investigator a Notice of Initiation of Disqualification
        Proceedings and Opportunity to Explain (NIDPOE). This notice offers the clinical
        investigator a chance to meet informally with the Center to discuss the violations found
        during the inspection. If the clinical investigator produces information that indicates he or
        she is taking corrective action or otherwise resolves the identified problems to the
        Center’s satisfaction, this meeting may be the end of the process.

        If FDA does not agree with information presented at the informal conference, the next
        step is to issue a Notice of Opportunity for Hearing. At this hearing, both the clinical
        investigator and FDA present their cases. The hearing records include the investigation
        results and the clinical investigator’s explanation. Legal counsel may accompany the
        clinical investigator to the hearing. The hearing officer makes a recommendation to the
        Commissioner, who reviews the information and makes a decision. The process often
        takes several years, during which time the clinical investigator may continue to conduct
        clinical research.

        At any point during the disqualification process, a clinical investigator can agree to be
        disqualified or restricted by signing a consent agreement. A restriction limits the ability of
        a clinical investigator to conduct clinical trials. A restriction can include a temporary
        disqualification for several years, specific restrictions on the type of studies a clinical
        investigator can conduct or supervision of the clinical investigator by another clinical
        investigator.


   Oversight of Clinical Investigators             7                                       OEI-05-99-00350
Impact and publicity of sanctions

        The FDA maintains a list of disqualified or restricted clinical investigators on its Internet
        home page. The list identifies the person, city and state, FDA Center, nature of sanction,
        date of sanction and limited summary information, such as whether the sanction was
        applied after a hearing or through a consent agreement. As of January 2000, the FDA list
        included information on 133 clinical investigators. Although FDA can repeal a
        disqualification or restriction, the names of reinstated clinical investigators remain on the
        list with a note that their sanctions have been reversed.

        The FDA’s regulations require that the Center that disqualifies a clinical investigator
        review other studies to which the clinical investigator has contributed data. The goal is to
        investigate whether data provided by a disqualified clinical investigator in support of
        another drug, biologic or medical device application was also tainted and should be
        removed from that application.

        The FDA makes Warning Letters available to the public by posting a redacted copy on its
        web site. The Centers have expressed the intention to post “Notice of Initiation of
        Disqualification Proceedings and Opportunity to Explain” letters on the FDA web site as
        well, although this has not yet happened. Currently, FDA does not list clinical
        investigators who have received a “Notice of Initiation of Disqualification Proceedings
        and Opportunity to Explain” on their web site.

Scope

        We examined FDA’s bioresearch monitoring programs involved in the approval of human
        drugs, biologics and medical devices. We did not examine FDA’s bioresearch monitoring
        programs involved in approving animal drug or food products. We also did not examine
        how district offices conduct on-site inspections of clinical investigators.


METHODOLOGY

        We reviewed the universe of 184 warning letters, NIDPOE letters and disqualification
        communications issued by FDA’s Centers between Fiscal Years (FY) 1994 and 1999. We
        interviewed the staff (27) and managers (6) of the bioresearch monitoring programs at
        FDA’s Center for Devices and Radiological Health, Center for Drug Evaluation and
        Research and Center for Biologics Evaluation and Research. Our respondents are
        responsible for assigning investigations of clinical investigators and classifying the results
        of those inspections. We discussed the role of bioresearch monitoring within the Centers,
        how clinical investigators are chosen for inspection and how decisions are made regarding
        case classification and disciplinary action.



   Oversight of Clinical Investigators            8                                      OEI-05-99-00350
     We examined the lists of clinical investigators who have received warning letters or have
     been disqualified by FDA. In addition, we analyzed FDA’s list of clinical investigators
     who have signed investigator agreements in conjunction with drug, device and biologics
     applications. We also conducted work flow analysis and examined how FDA’s
     bioresearch monitoring program fits into overall human subjects protection structures.

     We conducted our review in accordance with the Quality Standards for Inspections issued
     by the President’s Council on Integrity and Efficiency.




Oversight of Clinical Investigators           9                                    OEI-05-99-00350
                                         FINDINGS

Overall oversight of clinical investigators is limited
        The activities of clinical investigators who conduct research on investigational products
        regulated by FDA are supervised by several entities. Sponsors of clinical research are
        required to oversee the work of clinical investigators engaged in testing their products.
        Institutional Review Boards are required to review protocols and other research
        documents to make sure clinical investigators are protecting their research subjects from
        harm. Additionally, the FDA’s bioresearch monitoring program investigates clinical
        investigators as part of application reviews and on the basis of complaints to the agency.
        Monitoring by these entities appears to provide limited oversight of clinical research and
        human subject protection.

Limited and problematic oversight of clinical investigators

        Sponsor. A sponsor of clinical research is responsible for selecting qualified investigators,
        providing them with the information they need to conduct clinical trials and monitoring the
        clinical research. A sponsor can transfer any or all of its obligations, including the
        monitoring of clinical investigators, to a contract research organization.

        As part of the monitoring process, sponsors try to ensure that clinical investigators
        conduct clinical research in accordance with approved protocols such as adhering to
        human subject protections. A sponsor who finds problems with an investigator should try
        to secure compliance or end the clinical investigator’s participation in the investigation.
        The sponsor must notify FDA when a clinical investigator’s participation is terminated for
        noncompliance. Sponsors who are reluctant to report misconduct may terminate an
        investigator for “administrative” reasons and are not required to report. The FDA is
        currently looking at a way to close this loophole in their regulations.

        However, monitoring conducted by sponsors may be questionable. According to CDRH’s
        bioresearch monitoring inspections of sponsors conducted in FY 1998, over 50 percent of
        sponsors failed to ensure the proper monitoring of their clinical investigators. In 1998,
        CDER examined recent problem clinical investigators and found significant problems with
        sponsor oversight. They found that serious misconduct was not reported by sponsors and
        that the majority of the objectionable problems should have been detected by adequate
        monitoring. In addition, CDER found that the Quality Assurance reports by sponsors
        were inaccessible and that monitoring plans and reports were not submitted. The CDER
        acknowledged that they have a limited knowledge of the nature and scope of industry
        monitoring practices.


   Oversight of Clinical Investigators           10                                     OEI-05-99-00350
     Institutional Review Board. Since 1971, FDA has required that any study testing new
     drugs or biologics on human subjects within an institution receive review and approval by
     an Institutional Review Board (IRB). In 1976, FDA required IRB review for medical
     device studies. In 1981, FDA expanded the scope of its regulations to include a
     requirement for IRB review of any study conducted outside of an institution.

     The FDA expects an IRB to conduct initial and continuing review of research involving
     human subjects. The initial review includes examining the research protocol, the informed
     consent process, advertisements used to recruit subjects and other relevant information.
     Continuing review involves examining a study at least once a year to ensure that the risk-
     benefit ratio has not changed. During continuing review, the IRB considers study
     amendments and reports of unexpected adverse events.

     Questions have been raised about the effectiveness of IRB oversight of clinical
     investigator and clinical research. In April 1995, the Office of Inspector General (OIG)
     found inadequacies with IRB oversight. Problems included implantation of a device in
     three times the number of human subjects specified in the IRB approved research protocol
     and continuation of a research project for 6 weeks beyond when the IRB had suspended it.
     A 1998 OIG examination of Institutional Review Boards found problems with the IRBs’
     continuing review. This report found that continuing review by IRBs is of limited scope
     and significance.

     FDA’s Bioresearch Monitoring Program. The FDA carries out bioresearch monitoring
     inspections of clinical investigators. The goals of the program are to ensure the quality
     and integrity of data submitted to the agency and to protect the rights and welfare of
     human subjects. The inspections are conducted by FDA field staff with Center staff
     responsible for classifying the inspection results and identifying any needed FDA action.

     According to FDA data, there were more than 21,000 investigator agreements received in
     FY 1998 from clinical investigators involved in clinical research although not all
     investigator agreements result in data being submitted to FDA. These applications
     represent nearly 14,000 individual clinical investigators located in more than 60 different
     countries. In FY 1999, FDA conducted 497 non-randomly selected inspections of clinical
     investigators for a total of 468 individual clinical investigators inspected. The number of
     clinical investigator inspections has remained fairly stable in recent years after dropping
     from a high of 627 in FY 1996.

     Three-quarters of inspections conducted in FY 1999 were not due to any suspicion of
     wrong-doing. These were routine, or surveillance, inspections. Such inspections normally
     occur when FDA receives an application seeking approval for a new drug, biologic or
     device. The remaining 25 percent were directed (or compliance) inspections. A directed
     inspection is assigned when FDA receives information suggesting there may be a problem
     with a clinical investigator. This information could be from an analysis of


Oversight of Clinical Investigators          11                                     OEI-05-99-00350
        the data submitted by the clinical investigator in an application or other information that
        FDA may have received.

        The following findings detail specific concerns about the selection and classification of
        clinical investigator inspections.



Data integrity concerns, more than human subject
protection, drive FDA’s selection of clinical investigators for
inspection
        Training given to FDA investigators conducting inspections of clinical investigators
        emphasize that the prime objective of a clinical investigator inspection is to verify the
        quality and integrity of significant study data in support of FDA’s role of protecting
        consumers from unsafe or ineffective medical products. Information is collected and
        assessed based on this understanding. In the vast majority of cases, the bioresearch
        monitoring inspections occur after a clinical trial has been completed.

Bioresearch monitoring inspections of clinical investigators are application
driven

        Routine inspections focus on clinical investigators’ efforts as representative of research
        conducted in support of an application. Clinical investigator inspections are primarily
        conducted to provide a sense of the data quality to the application review team responsible
        for approving an application for product approval.

Inspections based on site size, inspection history, data issues

        Site size. Bioresearch monitoring staff at all three Centers agree that the primary
        consideration in selecting clinical investigators for inspection is the size of the subject
        population at the sites. Ninety-six percent of staff respondents (all but one) named site size
        as a major criteria in selecting sites, meaning the largest sites in an application are most
        likely to be chosen. The reason for selecting the largest site is to review the largest
        amount of data. One respondent stated that the goal in selecting large sites is ideally to
        cover 50 percent of the subject population, but that this goal is not realized currently.
        Staff at all Centers agreed that in general, three clinical investigators are inspected per
        application.

        Respondents noted some concern that clinical investigators with small numbers of subjects
        never get visited. Under a data validation focus this is appropriate, as smaller sites
        contribute proportionally less to the overall data. This could be problematic in a



   Oversight of Clinical Investigators            12                                      OEI-05-99-00350
     protocol or human subjects protection sense, as smaller sites may be no more or less likely
     to conduct studies correctly than sites with more subjects.

     Inspection history. Respondents indicated that when information on the number of
     subjects at various sites is not enough to make selections, clinical investigator inspections
     histories will be considered. This may also be the case when review staff have not
     recommended sites they want reviewed, especially if multiple sites have similar subject
     populations.

     There is some disagreement among staff as to how important inspection history is in the
     selection process. Although 70 percent of staff indicated that they review the inspections
     history of clinical investigators, remaining staff indicated that they did not review the
     inspections history of clinical investigators.

     Clinical investigators may not get selected if they have had a recent inspection that found
     few problems, but may be selected if a previous inspection turned up violations. When
     asked about warning letter follow up, many staff indicated that they reinspect a clinical
     investigator who received a warning letter when they see that the clinical investigator is
     involved with a new application. However, this may not always happen. Forty-seven
     clinical investigators whose official actions we reviewed submitted investigator agreements
     after receiving FDA correspondence. Of these clinical investigators, only 17 percent were
     reinspected for any reason.

     We understand that in some cases an investigator agreement may not lead to clinical trial
     data being submitted as part of the new product application. We did inquire whether it
     was possible to determine if the 47 clinical investigators submitted data as part of any
     product application. We were informed by FDA that this would be a very difficult and
     time consuming task.

     Data issues. Twenty of 27 staff indicated that they consider data issues when selecting
     clinical investigators for inspection. Data issues include adverse events, unusual or
     suspicious data including results that look too good or bad.

     Other factors. Almost half the staff respondents (48 percent) report working with the
     application review staff to some degree as they make their selections. The application
     review staff may recommend certain clinical investigators for inspection based on the size
     of sites or on data issues. Six of the 27 staff we interviewed indicated that they consider
     the workload or reputation of a district site before deciding whether to assign an
     inspection in that area. Some districts may have a lot of competing work which could
     delay completion of a clinical investigator inspection.




Oversight of Clinical Investigators            13                                     OEI-05-99-00350
Fraud and jeopardizing data merit official action

        Most respondents indicated that an inspection will be classified as “official action
        indicated” when the clinical investigator is found to have deliberately disregarded
        protocols or falsified data. While some respondents noted that multiple protocol
        violations due to sloppiness could lead to a warning letter if the volume of problems was
        large enough, this case was considered less likely than classification as official action
        indicated for deliberate falsification and fraud.

        Intent is a key reason staff will recommend classifying a clinical investigator inspection as
        an “official action indicated.” Eighteen respondents indicated that whether violations
        result in a warning letter or disqualification proceedings depends in part on whether the
        investigator meant to violate the regulations. Respondents indicated that a clinical
        investigator who fails to get some required informed consents should be educated through
        a warning letter. Failure to get any consents signed may indicate a larger problem with the
        investigator’s disregard for human subject protection.

        The decision to classify a case as an “official action indicated” also relies heavily on the
        impact violations have on study results. If violations call the data into question, staff are
        more likely to take stronger action than if the violations do not impact study results.

        The severity and extent of violations impact whether staff recommend that a case receive a
        voluntary or official action. Protocol violations that may lead to “voluntary action
        indicated” if relatively few are found, might elicit an “official action indicated” response if
        the violations are numerous or show evidence of a serious disregard for study protocols.
        This is especially the case if the violations do not compromise the data or put subjects at
        direct risk. In such cases, a high volume of violations must be found for a warning letter
        to be issued to a clinical investigator.

Disqualification, the strongest type of official action, is usually the result of fraud
and repeat violations

        Respondents nearly unanimously reported that fraud was the main reason that
        disqualification proceedings are initiated against a clinical investigator. This includes data
        manipulation and falsification as well as protocol violations such as failing to collect
        required data or to record data in a specified manner. Some respondents noted that if the
        mistakes or problems do not affect the site’s data, the case will probably warrant a
        warning letter.

        If violations first noted in an initial site visit are found again in a second inspection, the
        clinical investigator will likely have disqualification proceedings initiated against him. For
        example, when the first warning letter is written, the clinical investigator is required to
        respond to the Center indicating what steps the clinical investigator will take to correct


   Oversight of Clinical Investigators            14                                      OEI-05-99-00350
        identified problems. If the same problems are found during a second site visit, the
        implication is that the clinical investigator’s response to the initial letter was fraudulent.
        This proof of intent would be reason to initiate disqualification proceedings.

Review of official actions reveals that focus is primarily on data violations

        We reviewed 189 official actions the three Centers sent to clinical investigators between
        fiscal years 1994 and 1999. The letters reviewed were warning letters, NIDPOE letters
        and letters documenting disqualifications. The majority (107 official actions) were written
        by CDRH. We reviewed 58 from CDER and 24 written by CBER.

        The violations noted in the correspondence the Centers sent to clinical investigators fell
        into five main categories. Clinical investigators were routinely cited for problems with
        documentation, adherence to protocols, human subject protection, reporting and product
        (drug, device or biologic) control. The great majority of letters enumerated reporting,
        documentation and protocol violations. In addition, some other violations were noted,
        including promoting investigational products and failure to conduct work under federally
        required controls. See Appendix A for further details.

        The FDA states that examining protocol criteria is the first line of defense in protecting
        human subjects. They believe that taking investigators to task on this issue during
        inspections and highlighting the issue as part of their outreach are two effective ways of
        enhancing human subject protection. While protocol violations can impact human subject
        protection issues, in most cases these reviews occur after a human subject completes a
        clinical trial. These retrospective reviews by FDA do not protect the human subjects that
        are currently enrolled.

Other programs more geared towards human subject protection

        As previously noted, bioresearch monitoring staff tend to focus their attention more on
        data concerns than on direct review of human subjects issues. Other programs within
        FDA in general are more oriented towards human subject protection. In its 1996 report
        “Scientific Research: Continued Vigilance Critical to Protecting Human Subjects”, the
        General Accounting Office notes that FDA monitors for compliance with human subject
        protections by inspecting Institutional Review Boards, reviewing researchers’ and
        sponsors’ reports and inspecting clinical studies and investigators. The General
        Accounting Office report indicates that FDA’s inspection of Institutional Review Boards
        is its primary tool for human subject protection. While FDA does examine human subject
        protection issues during an inspection, the principal focus in such investigations is to verify
        that study data are accurate and complete and to ensure researchers’ adherence to study
        protocols.




   Oversight of Clinical Investigators             15                                       OEI-05-99-00350
The bioresearch monitoring program lacks clear and specific
guidelines
Review of complaints or inspection history is not a required part of the clinical
investigator selection process

        Complaints information is not connected to the routine inspection selection process. Most
        staff do not routinely use complaints made about clinical investigators as a factor in the
        selection process. Only CDER has recently instituted a complaints database. At the other
        Centers, when a complaint comes in but does not trigger an inspection, the complaint is
        often filed with the reviewer’s correspondence files. However, staff at all centers agreed
        that all complaints are followed up to some extent.

        Respondents at the three Centers said that they generally do not collect information about
        clinical investigators from the other Centers. Some staff pointed out that few clinical
        investigators work in more than one area of drug, biologics or device trials. Some clinical
        investigators do work in more than one area, however. In one example, a clinical
        investigator who received a warning letter from CBER was later disqualified from CDER
        without CDER knowing about the clinical investigator’s previous inspection history.

Bioresearch monitoring staff are not formally trained in classifying violations

        Most respondents indicate that they received little or no formal training on how to select
        clinical investigators for bioresearch monitoring inspections or how to assess whether
        violations necessitate voluntary action or a warning letter or the initiation of
        disqualification proceedings. Most respondents reported that they learned how to classify
        violations from other staff, that most training was informal “on the job” acculturation.

Repeated or deliberate violations: “You know it when you see it”

        The FDA regulations state that a clinical investigator can be disqualified from receiving
        investigational drugs or devices when the Agency has evidence that he or she has
        repeatedly or deliberately failed to comply with the applicable requirements for the
        conduct of clinical trials. Disqualification proceedings can also be initiated if the clinical
        investigator has repeatedly or deliberately submitted false information.

        While all respondents were familiar with the phrase “repeated or deliberate” with regard to
        violations noted in FDA inspections at clinical trial sites, many respondents were unable to
        give a specific definition of what constitutes “repeated” and “deliberate” violations or
        what the thresholds are for these terms. Some respondents indicated that the




   Oversight of Clinical Investigators             16                                      OEI-05-99-00350
        definition depends on the case, that “you know it when you see it.” Staff responses to
        what “repeated or deliberate” means were fairly consistent, if somewhat vague.

        Many respondents defined “repeated or deliberate” as violations about which the clinical
        investigator had received and ignored previous warnings. Several respondents said that a
        respondent with a warning letter has been told both what violations he needs to correct
        and what the consequences of noncompliance may be. A clinical investigator who does
        not fix the problems cited in the warning letter deliberately violates the rules. Other
        respondents indicated that deliberate action could be shown even if no previous warning
        letter had been issued. An IRB could have warned the clinical investigator to correct
        problems or the inspection may produce evidence that the clinical investigator knew he
        was violating the rules. Deliberate was also defined as fraudulent actions including
        falsification of data, forgery of consent forms or failure to report serious adverse events.

No Guidance on “Repeated or deliberate”

        There is no Center-wide official definition of “repeated or deliberate” violations of FDA
        regulations for bioresearch monitoring staff. No written document outlines the meaning of
        the phrase and none of the Centers provide staff with formal training on what constitutes
        repeated or deliberate violations of the regulations. Staff members learn the working
        definition through on-the-job experience and informal discussions with more experienced
        staff.

        The FDA Commissioner’s office does have some guidance on what “repeated or
        deliberate” means based on previous decisions. This information is used when reviewing
        disqualification cases. However, none of the staff involved in reviewing bioresearch
        monitoring inspections were aware of this information.

        In 1976, GAO released a report entitled “Federal Control of New Drug Testing is Not
        Adequately Protecting Human Test Subjects and the Public.” The report noted that FDA
        officials offered differing interpretations of the term “repeatedly.” The report cited the
        Director of the Division of Scientific Investigations as saying that the meaning of the term
        is questioned because the regulation from which it comes is hard to interpret.

        While FDA has not produced an official definition of “repeated or deliberate,” the Agency
        has produced a guidance document which outlines acceptable standards for clinical
        investigators. This information sheet, last revised in October 1995, provides standards of
        good clinical practice rather than legal requirements. The document is produced for use
        by clinical investigators and IRBs, but can be utilized by Center staff as a framework
        against which violations can be identified.

        In 1997, a cross-Center bioresearch monitoring workgroup produced a draft memo on the
        thresholds for initiating disqualification of a clinical investigator. The memo indicates


   Oversight of Clinical Investigators           17                                     OEI-05-99-00350
        that disqualification proceedings can be initiated against a clinical investigator who
        repeatedly or deliberately fails to comply with the requirements for the conduct of clinical
        trials or repeatedly or deliberately submits false information. While the memo outlines the
        categories of clinical investigator misconduct, it does not define what would constitute
        repeated or deliberate wrongdoing.

        The workgroup that drafted the thresholds memo was established in 1997 to streamline
        the disqualification process. The workgroup includes Center managers and
        representatives from the bioresearch monitoring program’s Office of Enforcement, the
        Office of Chief Council and the Office of Health Affairs. The group plans to clarify when
        and how staff should move to each step in the disciplinary process.

Bioresearch monitoring’s time frames are external

        The FDA conducts bioresearch monitoring inspections after the clinical research is
        completed and an application is submitted and before a decision on approval is made.
        Inspections are intended to provide information the application review staff need to make
        decisions on application approvals. The time frame for site selection, inspection and
        classification is short, especially for CDER and CBER. As these Centers are subject to the
        Prescription Drug User Fee Act, bioresearch monitoring work must be completed quickly
        so that the Centers can process a full review within the required 6-12 months. While
        deadlines are explicit for CDER and CBER, CDRH is also held to Center deadlines for
        application approvals.

        Several respondents indicated that it is important for inspections to be timely, because if
        inspection classifications and other input are not seen before an approval decision is made,
        their work is essentially useless. In addition, faster classification of inspections and
        correspondence with clinical investigators allows the inspection to more fully act as an
        educational tool. Officially communicating violations can alert clinical investigators to the
        scope of their misdeeds and help set them on a path toward corrective action. The sooner
        the clinical investigator is told what is wrong and asked to respond with an improvement
        plan, the sooner he or she can make those improvements in ongoing clinical trial work.

        Several staff had concerns about the bioresearch monitoring program’s effectiveness with
        regards to the timing of their work in the application process as a whole. One respondent
        said, “BIMO comes in so late in the application process, [the Office of Device Evaluation]
        is afraid we will find something wrong. If BIMO finds something wrong [the Office of
        Device Evaluation] doesn’t want to hear it unless it’s really extreme.” Respondents
        expressed concern that they only see information on the clinical investigators at the end of
        the application process. One respondent stated that they “aren’t allowed to be involved
        soon enough to be fully useful.”




   Oversight of Clinical Investigators           18                                     OEI-05-99-00350
        Working within given time frames and the need to highlight the most serious problems ,
        data validity is given priority. Poor data has an immediately recognizable impact on
        FDA’s ability to validate study results. The effect of human subject protection problems
        or reporting violations on study results may not be as clear.

The bioresearch monitoring program does not have Agency-wide program
measures

        None of the bioresearch monitoring programs we reviewed have written goals nor are
        there any FDA-wide written goals. The majority of staff and supervisors believe that the
        programs are fulfilling their goals. However, there are no concrete criteria against which
        the programs can assess their success.

        At the Center level, some performance measures are in the early stages of development.
        Since 1997, one of the Centers has used performance measures that look at timeliness,
        overall compliance rates and compliance with specific criteria. Another Center is using
        input measurements. However, neither of these Centers’ measures are used by FDA to
        appraise the bioresearch monitoring program.




   Oversight of Clinical Investigators          19                                     OEI-05-99-00350
                            RECOMMENDATIONS

        This report does not make any recommendations that address the weakness found with
        sponsor or institutional review board oversight of clinical investigators, since they have
        been addressed in other studies. Our recommendations focus on improving FDA’s
        oversight of clinical investigators.

The FDA should define cross-Center goals for the Bioresearch Monitoring
Program and develop criteria to determine whether the program is achieving
those goals

        While respondents in all three Centers described similar program goals, there is currently
        no way to determine whether bioresearch monitoring is achieving those goals. The FDA,
        through the internal working group on bioresearch monitoring, should define what an
        effective bioresearch monitoring program should accomplish. As part of that definition,
        FDA should:

        C	        clarify how long the process should take from the conclusion of the investigation
                  and submission of the report until a decision is made on the results of the
                  inspection and issuance of any Agency actions and,
        C	        clarify the criteria for selection of clinical investigators for inspection including
                  looking at smaller sites and previous inspection history and compliance.

        The FDA should also recognize the limitations of the current system’s ability to protect
        human subjects. Currently, most inspections are conducted after clinical trials are
        complete. Any human subject violations identified are found too late to protect the human
        subjects involved.

The FDA should develop internal guidance on the thresholds that violations must
meet to justify disqualifying a clinical investigator from receiving investigational
products

        The FDA’s internal working group on bioresearch monitoring should develop guidance on
        the severity and number of violations needed to justify beginning disqualification
        proceedings. Cross-Center guidance would insure that each of the Centers handles the
        results of clinical investigator inspections consistently. We believe that having a
        framework can provide structure for FDA reviewers.




   Oversight of Clinical Investigators              20                                      OEI-05-99-00350
                          AGENCY COMMENTS

     We would like to thank the Food and Drug Administration for commenting on the draft of
     this report. Based on FDA's general and technical comments, some changes and
     clarifications were made in this final report.

     The FDA commented that they are not responsible for providing patient care and that they
     are not currently equipped to monitor studies during the research process. We recognize
     this. We also understand that FDA attempts to protect human subjects and the general
     public through retrospective review of clinical investigators, research sponsors and
     institutional review boards. See Appendix B for the text of the Agency’s comments.




Oversight of Clinical Investigators         21                                   OEI-05-99-00350
                                                                                     APPENDIX A

                                 Review of FDA Official Actions


      Table 1: Percentage of Official Actions Citing Various Types of Violations

Issue                  Documentation      Protocol      Reporting       Human          Drug/Device/
                                                                        Subject        Biologic
                                                                        Protection     Control
CDRH                      83 (78%)        83 (78%)         85 (79%)      69 (64%)        52 (49%)
107 official actions

CDER                      57 (98%)        51 (88%)         35   (60%)    41 (71%)        21 (36%)
58 official actions

CBER                      20 (83%)        21 (88%)         19 (79%)      16 (67%)        10 (42%)
24 official actions

Total                    160 (85%)        155 (82%)        139 (74%)    126   (67%)      83 (44%)
189 official actions




          Documentation violations. Eighty-five percent of all the official actions highlighted
          problems with documentation. Sixty percent of all warning letters mention missing
          documentation. Other documentation problems include missing data in submitted
          documents, discrepancies between documents, missing correspondence, documentation
          that has been altered, falsification of data and inconsistent or poor data collection.

          Protocol violations. Protocol violations cited in official actions fall into four categories:
          enrollment violations, failure to follow protocol-required steps and instructions, problems
          with investigator agreements and authorizations and violations related to the use of a drug
          or device. While across the three Centers 82 percent of all official actions include
          discussion of protocol violations, this number is skewed somewhat because protocol
          violations appear in relatively fewer CDRH official actions (78 percent). As CDRH
          produced 107 official actions, this impacts the overall number. Both CDER and CBER
          noted protocol violations in 88 percent of their official actions to clinical investigators.

          Protocol violations can significantly impact study data and human subject protection.
          Failure to follow required actions can invalidate the data collected on drug or device
          effectiveness and safety, not to mention result in death or serious injury to subjects of the
          research. Study protocols exist to ensure that all sites conduct the study in the same way,
          that treatments are uniform and that data is collected uniformly. While adherence to


    Oversight of Clinical Investigators               22                                   OEI-05-99-00350
     protocols is the first line of defense in protecting human subjects from harm, in most cases
     FDA examines protocol violations after the human subject has been enrolled in the clinical
     trial.

     Reporting violations. Overall, 74 percent of the official actions contained descriptions of
     a clinical investigator’s failure to report to the appropriate IRB or study sponsor.
     Reporting violations include not submitting annual, final and other reports to the IRB or
     sponsor, not getting consent forms, protocols or advertisements approved by the IRB and
     not submitting data and substantiating documentation to the sponsor. Failure to report
     adverse events and deaths to IRBs and sponsors and late reporting of adverse events were
     also noted in warning letters to clinical investigators. While reporting violations usually
     refer to a failure to report to an IRB or sponsor, some official actions indicate that a
     clinical investigator also did not appropriately report to FDA.

     While reporting violations appeared somewhat less often in CDER’s official actions (60
     percent), both CBER and CDRH cited these violations in 79 percent of their
     correspondence. Many of the CBER official actions focus on clinical investigators’ failure
     to report adverse events to IRBs and sponsors. At CDRH, the most commonly cited
     reporting violations are failure to report adverse events and failure to submit progress,
     annual and final reports to the IRB or sponsor. Overall, while at least one reporting
     violation appears in 79 percent of all CDRH official actions we reviewed, there were
     generally fewer total reporting violations per action than there were protocol or
     documentation violations.

     Human subjects protection violations. The most common human subjects protection
     violation cited was the use of a deficient consent form. Other letters noted a lack of
     signed informed consent forms, either because the subject never signed the consent or that
     the consents are missing full signatures or dates for subjects, witnesses and clinical
     investigators. Other clinical investigators were faulted for not getting subject consent until
     after performing a surgical or other procedure on the subject. Other violations noted
     include use of an unapproved consent form and failing to give a copy of the consent form
     to subjects. Additionally, a few clinical investigators were found to have allowed device
     or calibration equipment to malfunction despite the potential for harm to subjects.

     Drug, device and biologic control violations. Many official actions cited clinical
     investigators’ difficulties maintaining control of the receipt, use and disposition of
     investigational drugs, devices or biologics. Often no records existed to document when
     and how many such products came in and out of the investigator’s control. Other warning
     letters note discrepancies in product control records. The Centers reported product
     control violations in 36 to almost 50 percent of their official actions; problems with
     product control are mentioned in 83 of the 184 actions we reviewed. This is the violation
     category that is mentioned the least in FDA official actions to clinical investigators.



Oversight of Clinical Investigators           23                                      OEI-05-99-00350
                                                         APPENDIX B


                                      Agency Comments





Oversight of Clinical Investigators          24              OEI-05-99-00350
Oversight of Clinical Investigators   25   OEI-05-99-00350
